O' ~
-.y

: O' n ~

■

In The
Supreme Court of the United States of America !/•

l

c;
t

‘

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al.,
Respondents.

On Petition for a Writ of Certiorari
To The Pa. Supreme Court at 137 WAL 2019;
The Pa. Superior Court at 329 WDA 2019;
and The Allegheny County, Pa. Civil/Commerce and Complex Litigation Center at
GD-13-011757.

PETITION FOR WRIT OF CERTIORARI

Michael Ramon Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
November 07, 2019

QUESTIONS PRESENTED
1.

The questions posed in the course of appellate actions at FD-07-000190 were

made cognizable by stipulation of all represented parties.
Each question should be regarded as if entered here in its entirety.1
2.

Would claims of malpractice, civil conspiracy or 42 Pa.C.S. §8344 Defamation be

irreparably lost per Pa.R.A.P. §313(b) Collateral Orders if this appeal is not heard?2
3.

Were those claims adequately protected within the time allowed by service to the

late, Hon. Ralph J. Cappy from 01-29-08 to 01-20-09?3
4.

Would the underlying criminal complaints or data supporting those claims be

irreparably lost if this appeal is not heard?
5.

Would this perverse outcome further erode Pa. Constitution Article 1§11 or U.S.

Constitution Article IV§1?
6.

Do either 18 U.S.C. §1346 or U.S.C. §1961 provide remedy for the problem of

Thrasymachus'! Does the #NewOrganonl
7.

Might the interest of justice have been better served if the Hon. David Wecht

had participated in this decision?
8.

Could all of this damage be mitigated by ordering the trial court to hear

04-25-19 Amended Complaint?1
1 See attached Exhibit H. Questions or Aporia or https://www.academia.edu/39906428/
Exhibit_H ._Questions_or_Aporia
2 For definitions of malpractice and civil conspiracy see: Ditch v. Waynesboro Hosp., 917 A.2d 317 (Pa.
Super. 2007); Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth. 2007), and Reading Radio,
Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003).
3 See attached Exhibit D. Conversations with the Late. Honorable Ralph ,T. Cappv or https://
www.academia.edu/38638818/Conversations_with_the_Late_Honorable_Ralph_J._Cappy
4 See attached Exhibits E-F or download directly at https://www.academia.edu/
38953832/04-25-19_Amended_Complaint

ii

LISTS OF PARTIES AND RELATED PROCEEDINGS
Contact information for the petitioner is on the cover. The complete list of
respondents is attached as Exhibit A. Defendants at App.37-39, with redacted updates
downloadable at: https://www.academia.edu/38126065/Exhibit_A._Defendants
The 01-23-19 trial court order under appeal here was limited to issues involving:
Defendant 2
Defendant 3
Defendant 6
Defendant 7
Defendant 15
Defendant 18
Defendant 19
Defendant 20
Defendant 22

Dr. Mukesh Sah
Dr. Pierre Azzam
Western Psychiatric Institute and Clinic (WPIC)
Dr. Rolf G. Jacob
Dr. Anne Thompson
Dr. Parmjeet S. Randhawa
Dr. Michael A. Nalesnik
Dr. Marta I. Minervini
Starzl Transplantation Institute

Defendants 2, 3, 4, 5, 6, 7, 8, 9, 14,15, 16,17, 18, 19, 20, 22 have been
represented by a rapidly changing team of counselors who have have yet to identify
their own clients correctly:
Justin M. Gottwald, Pa.I.D. #92847
Katelin J. Montgomery Pa. I.D. #322698
Rebecca Good McBride Pa. I.D. #90623
Steven L. Ettinger Pa. I.D. #316266
Dickie, McCamey & Chilcote, P.C. Pa. firm #067
Two PPG Place, Suite 400
Pittsburgh, PA 15222
A list of all proceedings in state and federal trial and appellate courts, including
proceedings in this Court, that directly arise from the same 250 Root Facts of this case
in this Court are now attached to every significant filing as Exhibit G. Items of Judicial
Notice, which can be found at App.46, with updated .pdf versions linked to the Root
Data at: https://www.academia.edu/38126093/Exhibit_G._Items_of_Judicial_Notice

Ill

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

4

CONCLUSION

5

----+—
INDEX OF APPENDICES
Appendix A. Decision of State Court of Appeals Quashing the Appeals
03-25-19 329 Application to Quash Appeal GRANTED

App.l

Appendix B. Decision of State Court of Appeals Denying Rehearing
04-09-19 329 Reconsideration DENIED

App.2

Appendix C. Decisions and Opinions of State Trial Court on Appeal
01-23-19 GRANTED Preliminary Objections of Defendants 2, 3,
6, 7, 15,18,19, 20, 22....................................................................... App.3
03-15-19 Reconsideration DENIED.............................................. App.4
Appendix D. Decision of State Supreme Court Denying Review
09-16-19 137 WAL 2019 Petition DENIED
Exhibits Dashboard
Exhibits A-I

App.5
App.6
App.7-18

IV

TABLE OF AUTHORITIES5
Pennsylvania Cases
Ditch v. Waynesboro Hosp., 917 A.2d 317 (Pa. Super. 2007)

l

Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth. 2007)

l

Reading Radio, Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003)

l

Pennsylvania Statutes and Constitution
42 Pa.C.S. §8344 Defamation
Pa.R.A.P. §313(b) Collateral Orders

i

Pa. Constitution Article 1§11 Courts to be open

i,2

U.S. Supreme Court Cases
U.S. Supreme Court 12-10508 Ochoa v. Rubin

5

U.S. Statutes and Constitution
18 U.S.C. §1346 Definition of “scheme or artifice to defraud

i. 2

18 U.S.C. §1961 Racketeering influenced and corrupt organization

i,2

28 U.S.C. §1257(a) State courts; certiorari

1

U.S. Constitution Article IV. Section I. Full Faith and Credit

i,2

5 .pdf versions of this document contain hotlinks to full texts of all citations.

1
^iR^sieiiR

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgements below.

OPINIONS BELOW
The opinions of the highest state court to review the merits of this case appear
at App.1-2 as Appendices A-B. The orders and opinions of the trial court appear at
App.3-4 as Appendix C.
All related court actions, as well as state and federal law enforcement complaints
and USPS priority mail service records, are included in the Root Data:
https://www.dropbox.com/sh/yvt5jv2dim5fklq/AdENY_UOJt

♦
JURISDICTION
The date on which the highest state court decided this case was 09-16-19.
A copy of that decision appears at App.5 as Appendix D. A petition for rehearing was
not filed. The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitutional and Statutory provisions previously presented to this Court
should be regarded as if entered here in their entirety, especially:!
Pa. Constitution Article 1§11. Courts to be open
All courts shall be open; and every man for an injury done him in his lands,
goods, person or reputation shall have remedy by due course of law, and right and
justice administered without sale, denial or delay.
18 U.S.C. §1346. Definition of “scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or artifice to defraud”
includes a scheme or artifice to deprive another of the intangible right of honest
services.
18 U.S.C. §1961 Racketeering influenced and corrupt organizations
(1) “racketeering activity” means (A) any act or threat involving murder,
kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene matter, or
dealing in a controlled substance or listed chemical (as defined in section 102 of the
Controlled Substances Act), which is chargeable under State law and punishable by
imprisonment for more than one year;
Also:
U.S. Constitution Article IV§1 Full Faith and Credit
Full Faith and Credit shall be given in each State to the public Acts, Records,
and judicial Proceedings of every other State. And the Congress may by general Laws
prescribe the Manner in which such Acts, Records and Proceedings shall be proved, and
the Effect thereof.

1 https://www.academia.edu/36286355/U.S._Supreme_Court_Conversations

3

STATEMENT OF THE CASE
The 250 Root Facts of this case are well known to this Court.2
On 11-07-06 I was deposited at the entrance of Western Psychiatric Institute and
Clinic by Defendant 1. I was in acute shock, drugged with illegally prescribed
medication with a “black box” warning of suicidality, and in desperate fear for the
safety and well being of my beloved ninas perdidas if I resisted. Defendants 2, 3, 7, 15,
18,19, 20 and pro se Defendants 5 and 21 each looked the other way, then actively
protected their own professional and financial interests by cooperating in concealing
Defendant l’s Root Crimes.
I have deep respect and admiration for the scientific discoveries and life saving
work of each of these defendants. But that does not forgive their crimes or remedy the
damage that they knowingly did to my rights, property and beloved ninas perdidas
without pity or remorse.
Therefore, my xenophonic response has been to apply my theoretical work to the
development of reliable, cost effective information technology capable of preserving
these facts, while seeking moderate and effective remedies compatible with these facts
and the laws.3

2 See attached Root Facts or https://www.academia.edu/37105946/Root_Facts compared to 10-18-11
11-5664 Petition for Writ of Certiorari at https://www.academia.edu/
5780500/10-18-ll_ll-5664_Petition_for_Writ_of_Certiorari
3 See A Philosophical and Mathematical Model of Truth: https://www.academia.edu/
35471143/ll-07-16_A_Philosophical_and_Mathematical_Model_of_Truth_or_NewOrganon

4
REASONS FOR GRANTING THE PETITION
Today is 11-07-19.
11-07-06 was the last day that I saw my beloved ninas perdidas.
It is a paradox of information technology that the further we have moved from
that date, the more certainly we can know the truth of the 250 Root Facts of this case.
To demonstrate that paradox, in the previous run of appellate actions in this
Court, I constructed a secure, cloud-based information system, #NewOrganon.
Using a widely-distributed, verified service process, dynamic content, and hashtagsorted RSS feeds, I “doxed” myself by piping the Root Data across parallel social
media platforms.
Previously, the cloud-based version of the Root Data was only accessible
through a link which was included in all written filings.4 Now the Root Data can be
accessed directly, through the dashboard tool, or through the linked set of .pdf
Exhibits. 5
Technically, those Exhibits are merely an arrangement of meta-data. 6 Their
present configuration demonstrates how Judge McVay’s 4 ad hoc orders relate to the
larger whole, while also giving this Court a real-time look ahead at increasingly brazen
attempts to destroy the truth.?

4 https://www.dropbox.com/sh/yvt5jv2dim5fklq/AADftLwY5jaDvFXTu2d7X4O7a?dl=0
5 The complete set is kept updated here: https://amherst.academia.edu/MichaelOchoa/Appendix-EExhibits
6 https://www.academia.edu/
35471143/ll-07-16_A_Philosophical_and_Mathematical_Model_of_Truth_or_NewOrganon
7 See 09-11-19 922 WDA 2019 Appellant’s Brief at https://www.academia.edu/
40309305/09-ll-19_922_WDA_2019_Appellants_Brief

5

♦
CONCLUSION
This petition for a writ of certiorari should thus be granted.
Then as I promised the late, Hon Antonin Scalia on 10-24-13:
“Finally, by merely allowing yourselves to be seen looking in my direction, you
will effect immediate, transformative good for all, while long being remembered as just
and wise and merciful.” -10-2^-13 U.S. Supreme Court 12-10508
Terras Irradient!

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: November 07, 2019

